                            11                   NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS
                            1

                                               ACTION MEMORANDUM

      TO:                                                     FILE NUMBER:            DATE:
      AIGI                                                    1-01100022              Februarv 4.2002




      Action: Case Close (Second Close After Re-open)


        1. On September 28,2001, OIG received an allegation via e-mail that described a possible
           conflict of intereh situation involving an assistant director,.-

       2. OIG investigated the allegation by performing several interviews, including OGC.
                                 I1
       3. Case was referred to prosecutor Noel Hillman, United States Attorney's Office, Public




                                      -
          Corruption/Government Fraud Section. As a result of the referral, it was determined to make
          direct contact with the SUBJECT.
                                 II

       4. After contacting the SUBJECT, it was determined that negotiations did not occur with the
               while the SUBJECT was involved in proposal
          review of a    m award while at NSF. The investigation also found information lacking in
          order to prove pe!sonal and substantial involvement by the SUBJECT as specified in 18 USC
          208, "Acts affecting a personal financial interest".

       4. After a second review and with the AUSA's office concurrence, this investigation is
          closed and no further action is being taken by OIG at this time.
                                      I1




11 COPIES MADE:                        I



111
              1I
              I   PREPAREDBY:
                  AGENT:
                                           /
                                                   1   CLEARED BY:

                                                       SAC:
                                                                                111
